FEDERAL TRADE COMMISSION
 OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS


   April 1, 2004 - September 30, 2004




               Report #31
                                                 TABLE OF CONTENTS




TRANSMITTAL                                                                                                                     Page

INTRODUCTION ...........................................................................................................        1

AUDIT ACTIVITIES ......................................................................................................         1
  Completed Audits .....................................................................................................        1
  Summary of Findings for Reviews Issued During the Current Period ......................                                       2
  Audits in Which Fieldwork is In Progress .................................................................                    4
  Planned Audits ...........................................................................................................    6

INVESTIGATIVE ACTIVITIES ....................................................................................                   7
  Investigative Summary ...............................................................................................         7
  Matters Referred for Prosecution ...............................................................................              8

OTHER ACTIVITIES .....................................................................................................          8
  Significant Management Decisions ............................................................................                 8
  Access to Information ................................................................................................        8
  Internet Access ...........................................................................................................   9
  Audit Resolution .........................................................................................................    9
  Review of Legislation ................................................................................................        9
  Contacting the Office of Inspector General ...............................................................                    9

TABLES
  Table I: Summary of Inspector General Reporting Requirements...........................                                       10
  Table II: Inspector General Issued Reports With Questioned Costs..........................                                    11
  Table III: Inspector General Issued Reports With Recommendations That
              Funds Be Put To Better Use .....................................................................                  12
                                      INTRODUCTION

        The Federal Trade Commission (FTC) seeks to assure that the nation’s markets are
competitive, efficient, and free from undue restrictions. The FTC also seeks to improve the
operation of the marketplace by ending unfair and deceptive practices, with emphasis on those
practices that might unreasonably restrict or inhibit the free exercise of informed choice by
consumers. The FTC relies on economic analysis to support its law enforcement efforts and to
contribute to the economic policy deliberations of Congress, the Executive Branch and the
public.

       To aid the FTC in accomplishing its consumer protection and antitrust missions, the
Office of Inspector General (OIG) was provided five work years and expended approximately
$710,000 for Fiscal Year 2004.

                                    AUDIT ACTIVITIES

        During this semiannual period, the OIG issued an audit of the FTC’s transit subsidy
program and an audit of the implementation of an agreement with the United States Agency for
International Development (USAID) to provide technical assistance to developing countries.
The OIG also completed its fourth annual audit of information security pursuant to requirements
contained in the Federal Information Security Management Act (FISMA). The OIG also began
an audit of the FTC’s Financial Statements for FY 2004 and a survey of select aspects of the
national Do-Not-Call registry. Detailed information regarding these audits and reviews is
provided below.

                                      Completed Audits

Audit Report Number                                  Subject of Audit
      AR 04-059                     Audit of the FTC’s Transit Subsidy Program
                                    for Fiscal Year 2003

       AR 04-060                    Review of FTC’s Management of Funds Transferred
                                    from the United States Agency for International
                                    Development in Fiscal Year 2003 for Technical
                                    Assistance to Developing Countries

       AR 04-061                    Office of Inspector General Independent Evaluation
                                    of FTC Implementation of the Federal Information
                                    Security Management Act for FY 2004

       AR 04-061A                   Executive Summary: Federal Information Security
                                    Management Act




                                             -1-
            Summary of Findings for Reviews Issued During the Current Period

        In AR 04-059, Audit of the FTC’s Transit Subsidy Program for Fiscal Year 2003, the
objective of the audit was to determine whether controls were in place to ensure that (i)
Department of Transportation (DOT) accurately billed the FTC for the subsidy its contractors
distributed to agency staff; (ii) transit subsidy payments were properly reflected on the agency’s
books and records and that all monthly adjustments were properly accounted for; (iii) employees
were following program guidelines when calculating their monthly subsidy request and received
only the amount of subsidy authorized under the program; and (iv) only eligible authorized
agency staff received a subsidy.

         The OIG determined that the agency was accurately billed for the subsidy provided to
FTC employees through the DOT, and that these amounts were accurately reflected in the
agency’s budgetary accounts. However, the OIG identified duplicate subsidies paid to six FTC
staff in select months. After satisfying ourselves that FTC staff were not implicated in any
wrongdoing (i.e., no staff received more than one duplicate payment) the OIG referred the
finding to the program coordinator for followup with DOT staff to identify and correct
weaknesses in controls that permitted these duplicate payments.

        While the program costs are accurately reflected in the agency’s financial records, the
OIG found that the agency is slightly over-subsidizing a significant number of its staff. The
application form used by all staff to enroll in the program provides for a maximum monthly
subsidy assuming no leave is taken by the employee. To arrive at a correct subsidy amount, the
process requires employees to perform monthly adjustments. Failure to perform such
calculations is rewarded with a full subsidy. While employees are asked to make monthly
adjustments for leave resulting in a reduction to their base subsidy, the OIG found that most
employees do not make such adjustments, resulting in an OIG-estimated over payment to the
agency’s 700 plus subsidy recipients of between $30,000 and $50,000 annually.

        Finally, the OIG performed steps to identify fraud, as required by Government Auditing
Standards. Tests performed by the OIG in high risk areas did not identify any instances of fraud
in the program.

        The OIG believes that shortcomings inherent in the current transit subsidy program can
be effectively addressed by redesigning the application form to consider likely leave usage when
the base monthly subsidy is originally calculated. Based on years of service and agency
sick/annual leave averages, employees need only make appropriate adjustments one time, e.g.,
when completing the application. The advantages of this approach are threefold: it would (i)
eliminate the need for agency employees to recalculate their monthly subsidy entitlement, (ii)
substantially reduce after-the-fact review costs by management to ensure compliance, and (iii)
save the agency a significant sum of money.

        The OIG provided management with one possible calculation approach that, if adopted,
would provide employees with a far more accurate estimate of the subsidy amounts they would
be entitled to over a year’s time. The calculation considers, in addition to holidays, annual and
sick leave, along with some administrative leave usage. If such an approach was taken to

                                               -2-
develop the original subsidy amount, employees would only need to make adjustments for
extraordinary events, such as extended travel and/or sick leave.

        In AR 04-060, Review of FTC’s Management of Funds Transferred from the United
States Agency for International Development in Fiscal Year 2003 for Technical Assistance to
Developing Countries, the objectives of the audit were to determine whether, for fiscal year
ending 9/30/03, the payroll and other related program costs charged against USAID funds were
(i) supported by approved documentation, and that these allocations appeared proper and
reasonable; and (ii) used only for the purposes stipulated by USAID in formal agreements with
the FTC.

       The review was undertaken pursuant to requirements contained in H. J. Res. 2, the
Consolidated Appropriations Resolution, 2003 (P.L. 108-7). Section 509(d) of the Appropriations
Act requires that any agreement entered into by USAID with another agency must include periodic
financial and program audits of the transferred funds by that agency’s Office of Inspector General.

        In complying with this new mandate, the OIG found that, for items selected for review,
procedures were in place to allocate costs among USAID programs consistently and correctly, and
that funds were spent in compliance with the agreements between USAID and the FTC for the
period reviewed. The OIG found only a few instances where some costs were incorrectly coded
into the accounting system despite program staff’s proper classification of these expenses. The
OIG also noted that the agency lacks a policy to allocate airfare in select circumstances.

        In AR 04-061, OIG Evaluation of FTC Implementation of the Federal Information Security
Management Act (FISMA) for FY 2004, the review objectives were to assess compliance with
FISMA and related information security policies, procedures, standards and guidelines, and to test
their effectiveness on a representative subset of the agency’s information systems. Specifically, this
review (1) evaluated the implementation of the FTC’s information security program; (2) assessed
agency progress towards correcting weaknesses addressed within the 2004 Plan of Action and
Milestones (POA&M); (3) verified and tested information security and access controls for the
General Support System, the Federal Financial System and the Premerger System, and (4)
evaluated FTC’s recently-established vulnerability assessment scanning and remediation program.

        The FTC continues to make progress in developing a mature information security program,
and has implemented or addressed many of the OIG-identified security vulnerabilities discussed in
the prior year evaluation. For example, the FTC (i) certified and accredited (C&A) one Major
Application and one General Support system by the close of fieldwork, and planned to complete
C&A’s on all remaining systems by fiscal year end; (ii) made significant improvements in the
POA&M tracking and reporting process; (iii) developed policies and procedures that addressed
various security issues; and (iv) developed a scanning and remediation program for system
vulnerabilities. As importantly, management appears to be tailoring its security approach to
conform to procedures and guidance issued by the National Institute of Standards and Technology
(NIST), the Federal Government’s recognized IT security expert.

       In addition to numerous technical improvements, FTC also made selected structural
improvements. As of mid-June 2004, the ITM Operations Section assumed responsibility for all
production systems. Prior to this time and contrary to recommended industry practices, developers

                                                 -3-
had substantial privileges on production applications and data. Software is being secured in a
locked room and all new and revised hardware and software are authorized, tested, and approved
prior to implementation. Finally, default system passwords have been changed and Change
Management procedures are now in use to manage and track system changes.

         While the agency has made many needed changes and improvements in its IT security
program, the OIG has also identified some new vulnerabilities that could impact the overall
effectiveness of the IT security program. The Office of Management and Budget (OMB), in FY
2004 FISMA reporting guidance, has instructed OIG’s to distinguish these vulnerabilities based on
the level of risk they represent to the agency’s ability to safeguard its information. Specifically,
OMB uses the category “significant deficiency” to refer to a weakness in an agency’s overall
information security program or management control structure, or within one or more information
systems, that significantly restricts the capability of the agency to carry out its mission, or
compromises the security of its information, information systems, personnel, or other resources,
operations or assets. Immediate corrective action must be taken. Somewhat lower on the scale of
urgency are “reportable conditions,” or security or management control weaknesses that do not
rise to the level of a significant deficiency, yet are still sufficiently important to be reported to
internal management.

        For FY 2004, unlike in prior years, the OIG found no significant deficiencies in the FTC’s
overall information security program. Yet, we did identify a number of reportable conditions, many
of which ITM management is now in the process of addressing. For example, ITM needed to make
changes to several security-related policies and procedures to bring them in line with OMB, NIST
and security best practices.

        The OIG also identified selected weaknesses in ITM’s ability to control access to data.
Specifically, the evaluation team found a few former employees who still had active network
accounts months after leaving the agency. In addition, some current employees who transferred to
different positions within the agency did not routinely lose their access to formerly-needed data.
The OIG provided the names of individuals to the appropriate staff within ITM for removal from
the network or from select databases.

                           Audits in Which Field Work is In Progress

Audit Report Number                                      Subject of Review
  AR05-XXX                            Audit of the FTC’s Financial Statements for Fiscal Year
                                      2004 The purpose of the audit is to express an opinion on the
                                      financial statements of the Federal Trade Commission for the
                                      fiscal year ending September 30, 2004. The principal
                                      statements to be audited include the (a) Balance Sheet; (b)
                                      Statement of Net Cost; (c) Statement of Changes in Net
                                      Position; (d) Statement of Budgetary Resources; (e) Statement
                                      of Financing; (f) Statement of Custodial Activity, and notes to
                                      the financial statements. The OIG will also test the internal

                                                -4-
                      controls associated with the movement of transactions through
                      the FTC’s financial system, and assess compliance with
                      selected laws and regulations.

                      The OIG will use guidance contained in OMB Bulletin No.
                      01-02, Audit Requirements for Federal Financial Statements,
                      in performing this audit. This year, the audited financial
                      statements are required to be included in the financial section
                      of the agency’s Performance and Accountability Report to be
                      issued on or before November 15, 2004.

Audit Report Number
  AR05-XXX            Survey of Do-Not Call Registry Removal Procedures
                      The OIG has learned of a small number of consumers
                      claiming to have been inadvertently removed from the Do-
                      Not-Call Registry without their knowledge or consent. DNC
                      officials informed the OIG that on occasion, when a caller
                      makes changes to his/her phone service the local companies
                      might mistakenly identify such requests as a disconnect. In
                      turn, when the agency’s contractor routinely scrubs the
                      registry, it might inadvertently identify such numbers as
                      disconnects and removes them from the DNC registry.

                      The objective of this survey is to determine whether registered
                      consumers are being properly removed from the registry, and
                      if not, what is the reason for their removal. To complete this
                      objective, the OIG will (i) verify that the information the
                      contractor provides to the FTC monthly on the number of
                      disconnects and deletions is complete and accurate; (ii)
                      document criteria used to remove numbers from the registry,
                      (iii) define the role played by local phone companies in the
                      removal process, (iv) determine whether the removals were
                      made for reasons that are in keeping with contractual
                      agreements and program objectives, and (v) analyze and
                      explain any discrepancies.




                                -5-
                              Planned Audits

  Audit Report Numbers                  Subject Review
    AR05-XXX             Review of Annual Performance Measures Under the
                         Government Performance and Results Act Under the
                         Government Performance and Results Act of 1993 ("GPRA"),
                         virtually every federal agency is required to develop a five-
                         year strategic plan, an annual performance plan and
                         performance measures to assess how well the agency is
                         meeting its performance objectives. Like many other
                         agencies, the FTC strives to capture all of the activities that
                         FTC staff perform to achieve the agency's mission.

                         On an annual basis, the OIG reviews the agency’s
                         performance measures to determine whether systems are in
                         place to accurately capture this information for external
                         reporting. The OIG plans to expand the scope of the required
                         review in a separate effort to look at whether selected
                         measures (i) are relevant to the agency’s missions; (ii) cover
                         the work of all direct enforcement staff ; and (iii) are correctly
                         matched to current year budgetary resources.

AR 05-XXX                Review of Assistance Provided to FTC Regional Offices
                         The Federal Trade Commission maintains a regional presence
                         with offices in seven geographical areas across the country.
                         Together, FTC’s Regional office operations consume
                         approximately 15 to 20 percent of agency resources.

                         The objectives of this review are twofold. First, the OIG will
                         evaluate the manner in which the FTC regional offices
                         manage operational and administrative responsibilities, and
                         maintain a system of internal controls in areas including, but
                         not limited to (i) time and attendance reporting, (ii)
                         procurement, (iii) property management, (iv) use of experts
                         and consultants, (v) contract administration, and (vi) physical
                         and information security. Each will be reviewed in
                         accordance with the FTC Administrative Manual, GSA
                         policy, and Department of Treasury requirements. Second,
                         the OIG will also assess how well the FTC central offices,
                         located in Washington DC, are supporting the regional
                         offices. Specifically, the OIG will interview administrative,
                         enforcement and management staff to obtain their views on
                         the quality, timeliness and sufficiency of support provided by
                         headquarters personnel.

                                    -6-
                                   INVESTIGATIVE ACTIVITIES

        The Inspector General is authorized by the IG Act to receive and investigate allegations of
fraud, waste and abuse occurring within FTC programs and operations. Matters of possible
wrongdoing are referred to the OIG in the form of allegations or complaints from a variety of
sources, including FTC employees, other government agencies and the general public.

        Reported incidents of possible fraud, waste and abuse can give rise to administrative, civil
or criminal investigations. OIG investigations might also be initiated based on the possibility of
wrongdoing by firms or individuals when there is an indication that they are or were involved in
activities intended to improperly affect the outcome of particular agency enforcement actions.
Because this kind of wrongdoing strikes at the integrity of the FTC's consumer protection and
antitrust law enforcement missions, the OIG places a high priority on investigating it.

        In conducting criminal investigations during the past several years, the OIG has sought
assistance from, and worked jointly with, other law enforcement agencies, including other OIG’s,
the Federal Bureau of Investigation (FBI), the U.S. Postal Inspection Service, the U.S. Secret
Service, the U.S. Marshal’s Service, the Internal Revenue Service, Capitol Hill Police, as well as
state agencies and local police departments.

                                         Investigative Summary

       During this reporting period, the OIG received 128 complaints/allegations of possible
wrongdoing. Of the 128 complaints, 87 involved issues that fall under the jurisdiction of FTC
program components (identity theft, credit repair, etc.). Consequently, the OIG referred these
matters to the appropriate FTC component for disposition. Another 18 complaints were referred to
other government and/or law enforcement agencies for ultimate disposition.

        Of the remaining 23 complaints, 17 were closed without any action and 4 are still under
review while the OIG obtains additional information to determine whether they warrant a full
investigation. The two remaining complaints are matters that are now under investigation by the
OIG.

      Following is a summary of the OIG's investigative activities for the six-month period ending
September 30, 2004.

               Cases pending as of 3/31/04..........................       5
                      Plus: New cases.................................    +2
                      Less: Cases closed.............................     (1)
               Cases pending as of 9/30/04.............................    6


         During the current period the OIG opened an investigation into possible wrongdoing by a
staff attorney after receiving a security violations report from the Information Technology

                                                      -7-
Management Office. The report indicated that, in violation of agency policy, the employee had
visited pornographic websites and downloaded pornographic images onto his FTC computer. The
OIG obtained the employee’s hard drive and sought assistance from the FBI forensic unit that
specializes in the identification of child pornography. After jointly reviewing the downloaded
material it was determined that the hard drive contained only adult content material and thus did not
support referral to a prosecutor. The OIG informed management of its findings and closed the case.
Management recommended a 30 day suspension without pay as disciplinary action for the
employee’s violation of agency computer and internet use policy.

                                 Matters Referred for Prosecution

     During the current reporting period the OIG did not refer any cases to a federal prosecutor.
However, the OIG consulted with a prosecutor on two investigations.

                                      OTHER ACTIVITIES

                                Significant Management Decisions

        Section 5(a)(12) of the Inspector General Act requires that if the IG disagrees with any
significant management decision, such disagreement must be reported in the semiannual report.
Further, Section 5(a)(11) of the Act requires that any decision by management to change a
significant resolved audit finding must also be disclosed in the semiannual report. For this
reporting period there were no significant final management decisions made on which the IG
disagreed and management did not revise any earlier decision on an OIG audit recommendation.

                                       Access to Information

        The IG is to be provided with ready access to all agency records, information, or assistance
when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the IG to report
to the agency head, without delay, if the IG believes that access to required information, records, or
assistance has been unreasonably refused, or otherwise has not been provided. A summary of each
report submitted to the agency head in compliance with Section 6(b)(2) must be provided in the
semiannual report in accordance with Section 5(a)(5) of the Act.

       During this reporting period, the OIG did not encounter any problems in obtaining assistance
or access to agency records. Consequently, no report was issued by the IG to the agency head in
accordance with Section 6(b)(2) of the IG Act.




                                                 -8-
                                           Internet Access

        The OIG can be accessed via the Internet at: http://www.ftc.gov/oig. A visitor to
the OIG home page can download recent (1996-2004) OIG semiannual reports to Congress, the FY
1998 - 2003 financial statement audits, and other program and performance audits issued beginning
in FY 1999. A list of audit reports issued prior to FY 1999 can also be ordered via an e-mail link to
the OIG. In addition to this information resource about the OIG, visitors are also provided a link to
other federal organizations and office of inspectors general.

                                          Audit Resolution

        As of the end of this reporting period, all OIG audit recommendations for reports issued in
prior periods have been resolved. That is, management and the OIG have reached agreement on
what actions need to be taken.

                                        Review of Legislation

        Section 4(a)(2) of the IG Act authorizes the IG to review and comment on proposed
legislation or regulations relating to the agency or upon request affecting the operations of the OIG.
During this reporting period, the OIG provided comments to the PCIE/ECIE on matters concerning
expanded law enforcement authority for ECIE OIG’s.

                            Contacting the Office of Inspector General

       Employees and the public are encouraged to contact the OIG regarding any incidents of
possible fraud, waste, or abuse occurring within FTC programs and operations. The OIG telephone
number is (202) 326-2800. To report suspected wrongdoing, employees and the public should call
the OIG's investigator directly on (202) 326-2618. A confidential or anonymous message can be left
24 hours a day. Complaints of allegations of fraud, waste or abuse can also be email directly to
chogue@ftc.gov.

       The OIG is located in Suite 1110, 601 New Jersey Avenue, Washington, D.C. Office hours
are from 8:00 a.m. to 6:00 p.m., Monday through Friday, except federal holidays. Mail should be
addressed to:

                              Federal Trade Commission
                              Office of Inspector General
                              Room NJ-1110
                              600 Pennsylvania Avenue, NW
                              Washington, DC 20580




                                                 -9-
